           Report No. D-2010-038                       January 25, 2010




          Identification of Classified Information
             in an Unclassified DoD System
             and an Unsecured DoD Facility




                                          Warning
“The enclosed document(s) is (are) the property of the Department of Defense, Office of
Inspector General. Release or disclosure of the contents is prohibited by DOD Directive
5106.1. Contents may be disclosed only to persons whose official duties require access
hereto. Contents cannot be released outside the Defense Department without the approval of
the Department of Defense, Office of Inspector General.”
Additional Copies
To obtain additional copies of this report, contact the Secondary Reports Distribution
Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
DDS                           Deployable Disbursing System
DFAS                          Defense Finance and Accounting Service
OIF                           Operation Iraqi Freedom
USCENTCOM                     United States Central Command




                             FOR OFFICIAL USE ONLY
FOR OFFICIAL USE ONLY
Report No. D-2010-038 (Project No. D2007-D000FL-0252.002)                   January 25, 2010


               Results in Brief: Identification of Classified
               Information in an Unclassified DOD System
               and an Unsecured DOD Facility

What We Did                                        What We Recommend
The objective of the audit was to determine        We recommend that the Assistant Secretary of
whether the internal controls over transactions    the U.S. Army (Financial Operations):
processed through the Deployable Disbursing
System (DDS) were adequate to ensure the              •   identify DDS disbursement transactions
reliability of the data processed. The audit              that contain classified information and
included financial information processed by               remove the classified information from
disbursing stations supporting the Operation              the system and
Iraqi Freedom and included the recording of
related obligations. In completing this               •   identify and properly mark the vouchers
objective, we identified an urgent issue related          containing classified information housed
to the U.S. Army mishandling of classified                at DFAS Rome.
information.
                                                   In addition, we recommend that the Director,
What We Found                                      DFAS:
The U.S. Army did not have effective internal
controls over the handling of classified              •   identify and remove classified
information to prevent the:                               information from DDS databases housed
                                                          by DFAS, Indianapolis Operations and
   •   processing of 655 transactions
       containing classified information into         •   move classified documentation to a
       DDS and                                            secure storage facility.

   •   submission of at least 40 disbursement      Management Comments and
       vouchers containing unmarked classified     Our Response
       information for storage at a vulnerable
                                                   The Deputy Assistant Secretary of the U.S.
       Defense Finance and Accounting
                                                   Army (Financial Operations) and the Director,
       Service (DFAS) Rome facility.
                                                   DFAS Information and Technology, agreed with
                                                   our recommendations. Management comments
The unauthorized disclosure of classified
                                                   were responsive to the recommendations and no
information in an unclassified system, such as
                                                   additional comments are required. Please see
DDS, or at a vulnerable facility could place
                                                   the recommendations table on page ii.
unsuspecting warfighters or trusted foreign
officials in harm’s way and cause damage to
national security.




                                               i USE ONLY
                                     FOR OFFICIAL
                                               i
Report No. D-2010-038 (Project No. D2007-D000FL-0252.002)            January 25, 2010

Recommendations Table

Management                        Recommendations           No Additional Comments
                                  Requiring Comment         Required
Assistant Secretary of the U.S.                             1.a and 1.b
Army (Financial Operations)
Director, Defense Finance and                               2.a and 2.b
Accounting Service




                                  FOR OFFICIAL USE ONLY
                                            ii
Table of Contents

Introduction                                                   1

      Objective                                                1
      Background                                               1
      Review of Internal Controls                              2

Finding. Army Classified Information                           3

      Management Actions                                       4
      Management Comments on the Finding and Our Response      4
      Recommendations, Management Comments, and Our Response   5

Appendix

      Scope and Methodology                                    7
          Prior Coverage                                       7

Management Comments

      Department of the Army                                    8

      Defense Finance and Accounting Service                   10




                                    FOR OFFICIAL USE ONLY
FOR OFFICIAL USE ONLY
Introduction
Objective
The objective of the audit was to determine whether the internal controls over
transactions processed through the Deployable Disbursing System (DDS) were adequate
to ensure the reliability of the data processed. The audit included financial information
processed by disbursing stations supporting the Operation Iraqi Freedom (OIF) and
included the recording of related obligations. In completing this objective, we identified
an urgent issue related to the U.S. Army mishandling of classified information. For
scope and methodology used and a discussion of prior coverage related to the objective,
please see the appendix of this report.

Background
On May 22, 2008, the DOD Inspector General Audit Report D-2008-098, “Internal
Controls Over Payments Made in Iraq, Kuwait, and Egypt,” addressed a material internal
control weakness over in-theater payments. In response to a draft of that report, the
Under Secretary of Defense (Comptroller)/ Chief Financial Officer stated that the
implementation of DDS would improve the controls. As a follow-up to “Internal
Controls Over Payments Made in Iraq, Kuwait, and Egypt,” we reviewed the controls
over commercial and miscellaneous payments processed through DDS. This audit is the
third of a series that addresses the internal controls and data reliability of DDS. The first
audit reported that the U.S. Marine Corps recorded classified information in unclassified
DOD systems. The second audit addressed the U.S. Marine Corps’ internal controls
related to the use of DDS. The fourth audit will cover the U.S. Army’s use of DDS.

DDS captures disbursement information for commercial and miscellaneous payments
processed by the U.S. Army disbursing stations, including those supporting OIF. The
Defense Finance and Accounting Service (DFAS) site at Rome, New York, maintains
documentation supporting these OIF payments.

DFAS developed DDS to fulfill the need for a military tactical disbursing system to
account for U.S. Treasury funds entrusted to disbursing agents on the battlefield and
provide timely reporting of accounting and pay information. DDS is an unclassified
system that is used for a variety of disbursing office functions, including travel pay,
military pay, accounts payable, disbursing and collection processes, and reporting.
During FYs 2006 through 2008, DDS processed in excess of 275,456 commercial and
miscellaneous payments for at least $13.2 billion. The U.S. Army disbursing stations
supporting OIF submit DDS supporting documents (disbursement vouchers, invoices,
and receiving reports) to DFAS Rome for storage.

Classified Information Requirements
DOD 5200.1-R, “DOD Information Security Program,” January 1997, prescribes
procedures for implementing Executive Order 12958, “Classified National Security
Information,” April 20, 1995, within DOD. This security program establishes the DOD

                              FOR OFFICIAL USE ONLY
                                        1
Information Security Program to promote proper and effective classification, protection,
and downgrading of official information requiring protection in the interest of the
national security. It provides specific requirements for the storage of classified
information in a locked security container, vault, room, or area.

U.S. Central Command (USCENTCOM) Security Classification Guide 0501, dated
June 9, 2005, implements the requirements of Executive Order 12958 for USCENTCOM.
The USCENTCOM Security Classification Guide 0501 establishes the basic policies for
proper classification, downgrading, and declassification of information related to
operations, facilities, communications, data collection, and processing. Personnel
involved in USCENTCOM activities use the USCENTCOM Security Classification
Guide 0501 to determine the levels of security classification assigned to information,
systems, programs, or projects associated with USCENTCOM, including information
processed by disbursing stations supporting OIF.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for the U.S. Army. The U.S. Army did not have effective internal controls
over the handling of classified information. Implementing Recommendations 1 and 2
will help prevent unauthorized disclosure of classified information. We will provide a
copy of the report to the senior U.S. Army official responsible for internal controls.




                             FOR OFFICIAL USE ONLY
                                       2
Finding. Army Classified Information
U.S. Army internal controls did not prevent the input of classified information into DDS
and did not ensure that classified information was properly marked in disbursement
documentation. This occurred because the U.S. Army did not comply with
USCENTCOM Security Classification Guide 0501 when handling classified information.
The unauthorized disclosure of classified information in unclassified systems, such as
DDS, or at a vulnerable facility could place unsuspecting warfighters or trusted foreign
officials in harm’s way and cause damage to national security.

DDS Databases
The U.S. Army processed 655 classified disbursement transactions through DDS, which
is an unclassified system. At least 132 disbursement vouchers from the U.S. Army DDS
databases contained classified information in the “Articles or Services” field or in the
“Payee” field. We reviewed the 682 transactions contained in the 132 disbursement
vouchers and determined that 655 transactions contained classified information. These
transactions included sensitive information pertaining to reward payments. Because DDS
is an unclassified system, the U.S. Army should not have processed classified
information through DDS. The U.S. Army should take corrective action to identify and
remove classified information from its DDS databases. In addition, because DFAS,
Indianapolis Operations, maintains export files of the U.S. Army DDS databases, DFAS
should also identify and remove classified information from the DFAS databases.

Disbursing Documentation
The U.S. Army did not properly mark classified information in its disbursing
documentation. The U.S. Army did not mark the disbursing documentation with a
classification in accordance with USCENTCOM Security Classification Guide 0501.
Specifically, the U.S. Army submitted disbursing documentation for reward payments
containing information that the USCENTCOM Security Classification Guide 0501
categorizes as classified. During a May 2009 visit to DFAS Rome, we reviewed 40
hard-copy documents that related to the 132 DDS disbursement vouchers containing
classified information. The hard-copy documents were stored in an inadequately secured
warehouse, and all 40 hard-copy documents contained classified information, including
sensitive reward payment information. DFAS Rome personnel stored this documentation
in a warehouse that was not adequate to safeguard classified information. According to
DOD 7000.14-R, “DOD Financial Management Regulation,” volume 5, chapter 11, the
paying disbursing or voucher preparing office must retain the classified portion of the
disbursement documentation. If the U.S. Army had properly marked the classified
documents, it may not have submitted them to DFAS Rome for storage.

We informed DFAS Rome that these 40 disbursement vouchers contained the same
classified information as posted in DDS and that they needed to properly secure them.
We notified DFAS Rome of an additional 16 disbursement vouchers that contained
classified information. DFAS Rome security personnel agreed that the warehouse used
to store these documents was inadequate for storage of classified information and stated

                             FOR OFFICIAL USE ONLY
                                       3
that they were in the process of building a secure facility. DFAS personnel stated that
they would sanitize the 40 vouchers and move classified information to a safe. To
prevent the release of classified information, the U.S. Army should review the
disbursement documentation housed in the DFAS Rome storage facility to identify and
properly mark the vouchers containing classified information. Upon completion of the
U.S. Army’s review, DFAS should store the disbursement vouchers containing classified
documentation in a secure facility, as specified in DOD 5200.1-R, “DOD Information
Security Program.”

Management Actions
On April 2, 2009, the Deputy Assistant Secretary of the U.S. Army (Financial
Operations) issued a memorandum regarding the processing of sensitive payments made
in contingency operations. The memorandum requires that all payments made in
contingency operations under the rewards program be processed using procedures for
classified documents. This memorandum prescribes procedures for the handling of
current and future documentation containing sensitive information. However, it does not
correct the preexisting conditions identified in this report.

According to the Director of DFAS Rome, to mitigate the risk of exposure of classified
information, DFAS restricted access to the warehouse requiring individuals to have at
least a SECRET clearance. DFAS also created policy prohibiting individuals from
bringing storage devices, such as cell phones and cameras, into the warehouse.

Conclusion
Because of the potential exposure of classified information and the consequential risk of
placing unsuspecting warfighters or trusted foreign officials in harm’s way, the U.S.
Army and DFAS should take immediate action to implement the recommendations stated
in this report.

Management Comments on the Finding and Our
Response
Management Comments on the Storage of Classified Information
The Director, DFAS Information and Technology, requested that the following
statements be added to the report:

    • “DFAS Rome completed the construction of the secure facility post-audit and
      expects Corps of Engineers to verify completion of the secure facility
      construction by 30 October 2009,” to page 3, paragraph 4, and

    • “Per DFAS security protocol red-tagged boxes have been moved post-audit from
      the controlled warehouse to the new secured environment storage room,” to
      page 4, paragraph 1.



                             FOR OFFICIAL USE ONLY
                                       4
Audit Response
We have included the full text of the Director, DFAS Information and Technology,
requested additions to the report (see the DFAS Comments section in this report). On
October 18, 2009, the Director, DFAS Rome, clarified that the U.S. Army Corps of
Engineers did not have to certify the facility. The Director, DFAS Corporate Security,
certified that the new storage facility complied with DOD 5200.1-R, “DOD Information
Security Program” requirements. On November 2, 2009, the Director, DFAS Rome,
approved the use of the facility for secure storage of classified material. We met with the
Director, DFAS Corporate Security, on November 6, 2009, and confirmed that DFAS
moved documentation that they confirmed to contain classified information into this
secure facility.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Assistant Secretary of the U.S. Army (Financial
Operations):

       a. Identify which Deployable Disbursing System disbursement transactions
       contain classified information and remove the classified information from the
       system.

Management Comments
The Deputy Assistant Secretary of the U.S. Army (Financial Operations) agreed. He
stated that the Defense Finance and Accounting Service (DFAS) prepared Deployable
Disbursing System scripts that identified and replaced classified information. He
explained that this script was run against centrally stored and in-theater databases and
also provided to audit agencies using these databases. In addition, he stated that the
Army Central Command and DFAS coordinated the cleansing of hardware.

Our Response
The Deputy Assistant Secretary of the U.S. Army (Financial Operations) comments are
responsive to the recommendation and no additional comments are required.

       b. Review the disbursement documentation housed in the Defense Finance
       and Accounting Service Rome storage facility to identify and properly mark
       the vouchers containing classified information.

Management Comments
The Deputy Assistant Secretary of the U.S. Army (Financial Operations) partially agreed.
He stated that the Army has partnered with DFAS to review vouchers for classified
information. He also stated that the immediate focus is on incoming documents and
those already scanned into an imaging system. He added that boxes of older documents
were tagged for transfer to a secure facility and subsequent review for classified
information prior to scanning.

                             FOR OFFICIAL USE ONLY
                                       5
Our Response
The Deputy Assistant Secretary of the U.S. Army (Financial Operations) comments are
responsive to the recommendation because DFAS has completed a new secure storage
facility that meets the requirements of DOD 5200.1-R and has moved documentation
confirmed to contain or potentially containing classified information to this facility.
Therefore, no additional comments are required.

2. We recommend that the Director, Defense Finance and Accounting Service:

       a. Identify which Deployable Disbursing System disbursement transactions
       stored in databases housed by Defense Finance and Accounting Service,
       Indianapolis Operations, contain classified information and remove the
       classified information from the databases.

Management Comments
The Director, DFAS Information and Technology, agreed and stated that all Deployable
Disbursing System databases have been scanned and classified data have been identified
and removed. This action was completed in September 2009.

Our Response
The Director, DFAS Information and Technology, comments are responsive to the
recommendation and no additional comments are required.

       b. Move documentation containing classified information, as identified by
       the auditors and the U.S. Army, to a storage facility that meets the classified
       information storage facility requirements specified in DOD 5200.1-R, “DOD
       Information Security Program,” January 1997.

Management Comments
The Director, DFAS Information and Technology, agreed and stated that as of
September 30, 2009, DFAS Rome has a sensitive document facility which meets the
classified information storage facility requirements specified in DOD 5200.1-R.
Documentation containing classified information is now stored within this facility.
Additionally, procedures have been implemented to restrict access to the controlled
warehouse.

Our Response
The Director, DFAS Information and Technology, comments are responsive to the
recommendation and no additional comments are required.




                             FOR OFFICIAL USE ONLY
                                       6
Appendix. Scope and Methodology
We conducted this performance audit on the identification of classified information
during January through September 2009, in conjunction with the performance of the
audit, “Internal Controls and Data Reliability in the Processing of U.S. Army Payments
Through DDS.” We performed this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
assessment to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our objectives.

This is the third in a series of reports on our audit of Internal Controls and Data
Reliability in the DDS. We evaluated FY 2006 through FY 2009 commercial and
miscellaneous disbursement voucher data that the U.S. Army entered into DDS and the
disbursement documentation the U.S. Army stored at DFAS Rome. We applied the
classification guidelines contained in USCENTCOM Security Classification Guide 0501
and reviewed DDS data and hard-copy documentation to determine whether it contained
classified information. We discussed our review of the disbursement data and
documentation with U.S. Army and DFAS personnel. As a result, we determined that the
U.S. Army had processed disbursement transactions that contain classified information in
DDS and stored unmarked classified documentation in an inadequate storage facility.

Use of Computer Processed Data
We relied upon computer-processed data obtained from DDS to perform this audit. We
confirmed that the classified information posted in DDS also existed on the hard-copy
documentation stored at DFAS Rome.

Use of Technical Assistance
We consulted with DFAS security officials to verify the security level of the warehouse
used to store the documents at DFAS Rome. In addition, we consulted with DOD Office
of Inspector General security officials to ensure that we did not compromise the security
of the classified information

Prior Coverage
During the last 5 years, the DOD Office of Inspector General has issued one report
regarding classified information processed by DDS. One can access unrestricted
DOD Office of Inspector General reports at http://www.dodig.mil/audit/reports.

DOD IG Report No. D-2009-054, “Identification of Classified Information in
Unclassified DOD Systems During the Audit of Internal Controls and Data Reliability in
the Deployable Disbursing System,” February 17, 2009




                             FOR OFFICIAL USE ONLY
                                       7
Department of the Army Comments




                      FOR OFFICIAL USE ONLY
                                8
FOR OFFICIAL USE ONLY
          13
                          Final Report
                           Reference




                        Management
                        Comments on the
                        Finding Page 4




FOR OFFICIAL USE ONLY
          14
FOR OFFICIAL USE ONLY
